U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                              Review of the 

                         Department’s Contractor 

                        Personnel Security Process 

                                      March 2013




                                      I-2013-003


                                EXECUTIVE DIGEST 



INTRODUCTION

      The Office of the Inspector General (OIG) evaluated the time it took
the Department of Justice (Department or DOJ) to complete the
personnel security process for contractors, how well the Department
meets the timeliness and reciprocity requirements of the Intelligence
Reform and Terrorism Prevention Act of 2004 (IRTPA) and other directives,
whether certain positions take longer to process, and whether the
Department ensures that only individuals with favorably adjudicated
background checks have access to sensitive and National Security
Information.1

       Background investigations for the Department are conducted by
one of three investigative agencies: the Office of Personnel Management
(OPM), the Federal Bureau of Investigation (FBI), and the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF). 2 Individuals in
positions that require access to National Security Information
(information classified at the Top Secret, Secret, or Confidential level)
generally require more in-depth investigations than individuals whose
positions do not require access to classified information (typically termed
Public Trust positions).

      IRTPA requires agencies that are authorized to grant National
Security Information clearances to complete at least 90 percent of the
clearances within an average of 60 days – 40 days to complete the
background investigation and 20 days to complete the adjudication
determination.

       Background investigations and adjudications for Public Trust
positions are not subject to the IRTPA guidelines. However, OPM
requires that an agency both complete the adjudication process and
report to OPM its determination within 90 days of receiving a completed
background investigation. 3



       1   Pub. L. No. 108-458, 118 Stat. 3638.

       2  Until October 2012, the U.S. Marshals Service conducted background
investigations for one specific category of contractors, Court Security Officers.

       3   5 C.F.R. § 732.302(b) and Executive Order 10450 (signed in 1953).


U.S. Department of Justice                                                          i
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

      While the Department generally completed personnel security
reviews for Public Trust contractor positions in a timely manner, nearly
10 percent of adjudications exceeded OPM’s 90-day timeliness
requirement: Public Trust contractors accounted for 90 percent (3,434 of
3,797) of the contractor security cases the Department completed during
our timeframe. Overall, the Department averaged 82 days to complete
personnel security approvals for Public Trust cases. Further, the
Department averaged 36 days to complete the adjudication phase of the
process, falling well within OPM’s 90-day requirement. However, nearly
10 percent (326 of 3,434) of Public Trust adjudications took more than
90 days to complete, the majority of which involved BOP contractors.
Given that contractors generally receive a waiver to start work prior to
the completion of the personnel security process, and given that they
may work in close proximity to sensitive systems and information, the
OIG is concerned that delays in the personnel security process for these
individuals may present a security risk to the Department.

       The Department failed to meet the 60-day IRTPA time guideline:
The OIG found that from the first quarter of fiscal year (FY) 2010 through
the first quarter of FY 2011, the Department as a whole did not meet the
statutory timeliness guidelines for National Security Information
clearances, primarily due to the length of time it took for the FBI to
complete background investigations for its contractors. The FBI
accounted for almost all (99 percent, or 359 of 363) of the Department’s
cases and averaged 108 days to complete National Security Information
clearances for its contractors. The OIG found that the FBI’s processing
time was affected by the time taken to complete security clearances for
contract linguists, who often have extensive foreign connections that
must be assessed, slowing the investigative process. During the time
period covered by this review, security clearances for FBI contract
linguists took 67 days longer on average compared with other FBI
contractors (166 days versus 99 days).

       Components do not effectively track contractor personnel security
information: During the time period covered by our review, procedures
for tracking contractor personnel security information varied significantly
throughout the Department, and some components did not maintain
accurate personnel security information on their contractors. For
example, in data ATF submitted to the OIG, 250 of 372 contractors were
mistakenly listed as occupying National Security Information positions
when in fact they should have been listed as occupying Public Trust
positions.


U.S. Department of Justice                                               ii
Office of the Inspector General
Evaluation and Inspections Division
       There is no comprehensive Department-wide security policy for
contractors: The Justice Management Division’s Security and
Emergency Planning Staff (SEPS) is responsible for issuing Department-
wide security policies. However, SEPS has issued only minimal guidance
for components to follow in managing their contractor security programs,
and none of it is binding. Nor does the guidance provide standards for
maintaining accurate rosters on contract employees or periodic
reinvestigations. As a result, components frequently have to seek
clarification from SEPS.

RECOMMENDATIONS

       We make four recommendations in this report to improve the
Department’s management of its personnel security process for
contractors. These recommendations include establishing procedures to
identify Public Trust cases that have exceeded OPM’s 90-day
adjudication requirement and continuing to use OPM to conduct
background investigations for Court Security Officers. We also
recommend that SEPS require components to maintain rosters of their
active contractors and that SEPS issue a Department-wide contractor
security policy.




U.S. Department of Justice                                            iii
Office of the Inspector General
Evaluation and Inspections Division
                                TABLE OF CONTENTS 



 BACKGROUND ................................................................................. 1



 PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW ...... 6



 RESULTS OF THE REVIEW............................................................... 8



     CHAPTER I: PUBLIC TRUST POSITIONS ...................................... 8



     CHAPTER II: NATIONAL SECURITY INFORMATION 

        POSITIONS.......................................................................... 15



     CHAPTER III: PROGRAM MANAGEMENT AND TRACKING ......... 17



 CONCLUSION AND RECOMMENDATIONS ...................................... 21



 APPENDIX I: ACRONYMS ............................................................... 23



 APPENDIX II: RELATED OIG REPORTS.......................................... 24



 APPENDIX III: RISK LEVELS ASSOCIATED WITH BACKGROUND 

    INVESTIGATION REQUIREMENTS ........................................... 25



 APPENDIX IV: COMPONENTS WITH DELEGATED AUTHORITY 

    FOR THE CONTRACTOR PERSONNEL SECURITY PROCESS ... 27



 APPENDIX V: METHODOLOGY ...................................................... 28



 APPENDIX VI: THE SECURITY AND EMERGENCY PLANNING 

    STAFF RESPONSE TO DRAFT REPORT.................................... 31



 APPENDIX VII: OIG ANALYSIS OF THE SECURITY AND 

    EMERGENCY PLANNING STAFF RESPONSE............................ 33



 APPENDIX VIII: THE U.S. MARSHALS SERVICE RESPONSE TO 

    DRAFT REPORT ....................................................................... 35



 APPENDIX IX: OIG ANALYSIS OF THE U.S. MARSHALS SERVICE 

    RESPONSE .............................................................................. 37






U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                     BACKGROUND 



       The Office of the Inspector General (OIG) conducted a two-part
review to assess whether the Department of Justice (Department or DOJ)
is effectively administering the personnel security process for government
employees and contractors to meet component mission and security
requirements. The first report focused on the process for employees, while
this second report addresses the process for contractors. 4

      In both parts of the review, we evaluated how the Department was
meeting the requirements of the Intelligence Reform and Terrorism
Prevention Act of 2004 (IRTPA) and related executive branch directives. 5
IRTPA requires agencies that are authorized to grant National Security
Information clearances to complete at least 90 percent of the clearances
within an average of 60 days. 6 During the time period covered by this
review, agencies were to take no more than 40 days to complete the
investigative phase and no more than 20 days to complete the adjudicative
phase of a clearance. 7

      In addition, IRTPA’s reciprocity provision mandates that agencies
accept a background investigation completed by any other authorized
federal investigative or adjudicative agency, provided that the clearance is

       4  See U.S. Department of Justice Office of the Inspector General, The
Department’s and Components’ Personnel Security Process, Evaluation and Inspections
Report I-2012-003 (September 2012). See Appendix II for prior OIG reports finding that
certain Department components did not have effective personnel security processes.

        5 Pub. L. No. 108-458, 118 Stat. 3638. Prior to IRTPA, Executive Order 12968

(signed in 1995) called for a uniform federal personnel security program for individuals
being considered for access to classified information, established policies for protecting
classified information, and detailed individual access levels and reciprocity procedures
among federal agencies.

        6 The OIG used the IRTPA guideline to measure the Department’s performance

because, although IRTPA does not establish a specific deadline for completing individual
cases, it does establish a general guideline for completing cases within average time
periods that is accepted government-wide. Further, both the Office of Personnel
Management and the Office of the Director of National Intelligence use the fastest
90 percent of National Security Information cases in measuring agencies’ performance
against the IRTPA time guidelines.

         7 On October 1, 2012, the Director of National Intelligence signed an order

lengthening the time to complete investigations for certain, more complex investigation
levels from 40 to 80 days. The adjudication goal remained at 20 days. However, this
report will use the standards as they existed during the time period covered by this
review.

U.S. Department of Justice                                                                1
Office of the Inspector General
Evaluation and Inspections Division
not temporary or interim and the background investigation was favorably
adjudicated, was at the appropriate security clearance level for the
position, and was completed within the past 5 years. 8

National Security Information and Public Trust Positions

      Individuals in positions that require access to classified information
are granted National Security Information clearances at the Top Secret,
Secret, or Confidential level. The higher the clearance level, the more in
depth the background investigation must be. IRTPA provides guidelines
that these clearances must meet.

       Individuals who do not require access to classified information but
who may be involved in policy making, major program responsibility, or
other sensitive roles are typically considered to be in Public Trust
positions. Public Trust positions are assigned a risk level of High,
Moderate, or Low based on the potential harm actions of individuals in
those positions could cause the federal government.

       Background investigations and adjudications for Public Trust
positions are not subject to the IRTPA guidelines. There is, however, a
requirement that agencies must both complete the adjudication and report
the determination to the Office of Personnel Management (OPM) within 90
days of receiving a completed investigation. 9 Additionally, agencies must
apply reciprocity for Public Trust cases and cannot make a new
determination for a person who has already been determined suitable. 10

      Appendix III details the types of National Security Information
clearances and Public Trust risk levels and the background investigation
required for each position.

Personnel Security Process

      Each component has a Security Programs Manager who determines
the appropriate risk level for each contractor position, certifies that the
requirements for granting security clearances are adequate, and monitors




       8 Executive Orders 12968 and 13381 (signed in 2005) also include the

requirement for reciprocity.

         9    5 C.F.R. § 732.302(b) and Executive Order 10450 (signed in 1953).

         10   Executive Order 13488 (signed in 2009) and Executive Order 13467 (signed in
2008).

U.S. Department of Justice                                                             2
Office of the Inspector General
Evaluation and Inspections Division
compliance. 11 Although the process can vary, Figure 1 depicts the typical
personnel security process.

                      Figure 1: Personnel Security Process




Abbreviations: BI = Background Investigation; e-QIP = Electronic Questionnaires for
Investigations Processing system.

Source: OIG.

       To initiate the personnel security process, individuals must provide
background information related to their family members, residence,
education, employment, finances, and criminal history. Since 2005,
individuals have typically entered the information online using OPM’s
Electronic Questionnaires for Investigations Processing (e-QIP) system.
Once the component requesting the investigation verifies the information
is complete, the information is sent to the agency responsible for
conducting the investigation. The investigative agency conducts the
investigation, which consists of verifying residence, education,
employment, financial state, and criminal history. Investigators generally
interview the individual, as well as family members, neighbors, and
personal acquaintances.

      The results of the investigation, which usually include a summary of
any interviews and database checks, are sent to the adjudicating
authority. The adjudication process examines more than a dozen
variables over a sufficient period of a person’s life to determine whether the
person is eligible for access to classified information or to serve in a Public

       11   Justice Acquisition Regulations 2804.470-2.

U.S. Department of Justice                                                            3
Office of the Inspector General
Evaluation and Inspections Division
Trust position. Information about a person’s past and present, favorable
and unfavorable, is used to make determination decisions.

Authorities to Conduct Background Investigations and Adjudications

      Within the Department, background investigations for contractors in
National Security Information or Public Trust positions are conducted by
one of three authorized investigative entities. 12 The Federal Bureau of
Investigation (FBI) and the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF) are authorized to conduct investigations of their Public
Trust contractors and certain categories of contractors in National
Security Information positions. An external agency, OPM, conducts the
background investigations for all other components of the Department. 13
Although the investigative entities’ processes differ slightly, as discussed
below, all background investigations must meet the same government-
wide minimum standards. 14

        For adjudications, OPM authorized the Justice Management
Division’s (JMD) Security and Emergency Planning Staff (SEPS) to make
determinations for National Security Information and Public Trust
positions. 15 For contractors, SEPS further delegated adjudication
authority to 21 of the Department’s components, including ATF, the
Federal Bureau of Prisons (BOP), the Drug Enforcement Administration
(DEA), the FBI, and the U.S. Marshals Service (USMS). Appendix IV lists
all of the components with delegated authority over their contractors.



        12 Contractors who require access to National Security Information frequently

work under commercial contracts and have clearances granted by the Department of
Defense’s Defense Industrial Security Clearance Office (DISCO). The Department accepts
these individuals’ clearances under reciprocity. Because the Department is not
responsible for the timeliness of clearances completed by DISCO, we did not include these
contractors in our analysis. Contractors having an employer-employee relationship with
the government are not cleared through DISCO. The Department manages the clearance
process for these individuals. For the purposes of this review, we examined only this
latter group of contractors.

        13 The U.S. Marshals Service conducted background investigations for one

specific category of contractors, Court Security Officers. We discuss this further in
Chapter I of this report.

       14   Executive Order 12968 and Executive Order 13467.

        15 28 C.F.R. § 17.11(c) and Executive Order 12968 give the Department the

authority to grant, suspend, and revoke security clearances and to delegate its authority
to the components. In 5 C.F.R. § 731, OPM delegated to agencies the authority to
adjudicate Public Trust positions.

U.S. Department of Justice                                                              4
Office of the Inspector General
Evaluation and Inspections Division
DOJ Personnel Security Process

      SEPS is the primary office responsible for establishing Department-
wide personnel security policy and for providing oversight of the
Department’s personnel security clearance process.

       SEPS also manages the Justice Security Tracking and Adjudication
Record System (JSTARS), a web-based personnel security processing
application that tracks all elements of the Department’s personnel security
process for employees and contractors, such as background investigations,
adjudications, reinvestigations, clearance levels, pre-employment waivers,
reciprocity actions, and clearance certifications. As of December 2012, all
components had moved their data to JSTARS. Although the FBI reports
its personnel security data to JSTARS for Department-wide tracking
purposes, it continues to use its internal systems to track personnel
security data as well.

      The following sections describe the three primary personnel security
processes used within the Department.

Background Investigations Completed by the FBI

      The FBI conducts the background investigations and makes the
adjudication determinations for some of its own contractors. Some FBI
applicants, such as contract linguists, must also pass polygraph
examinations. In addition, certain positions may require the applicant to
pass a physical or medical examination. All FBI contractors are cleared at
the Top Secret or Secret level; there are no Public Trust positions in the
FBI. The FBI may use either contract investigators or its own special
agents to conduct the background investigations.

Background Investigations Completed by ATF

      ATF conducts the background investigations and makes the
adjudication determinations for its Public Trust contractors and some
contractors in National Security Information positions. Most ATF
investigations are conducted by contract investigators. However, ATF does
sometimes use OPM to conduct lower-level background investigations that
do not require field work.

Background Investigations Completed by OPM

       Many Department components, including JMD and the OIG, rely on
OPM to conduct background investigations. OPM uses contractors to
conduct investigations. When an investigation is completed, OPM releases
the information to the appropriate agency for adjudication.

U.S. Department of Justice                                              5
Office of the Inspector General
Evaluation and Inspections Division
     PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW




      The purpose of the second phase of the OIG’s review is to assess
whether the Department is effectively administering the personnel security
process for contractors to meet component mission and security
requirements. This phase of the review focused on the time it takes to
complete background investigations and adjudications for contractors, the
Department’s success in meeting IRTPA’s timeliness guidelines, whether
certain positions take longer to process than others, whether the
Department provides sufficient oversight of components’ contractor
personnel security process, and whether the Department ensures that only
individuals with the necessary security approvals have access to sensitive
and National Security Information.16

      This review examined the Department’s timeliness for the end-to-
end process, regardless of whether the investigative agency was part of the
Department (the FBI and ATF) or outside the Department (OPM).

      We analyzed data from all the Department’s components. Among
those we reviewed were ATF, the Antitrust Division, the BOP, the Civil
Division, the Civil Rights Division, Community Oriented Policing Services,
the Community Relations Service, the Criminal Division, the DEA, the
Environment and Natural Resources Division, the Executive Office for
United States Attorneys (EOUSA), the FBI, JMD, the Office of Justice
Programs (OJP), and the USMS. Our review included interviews, data
analysis, document reviews, and site visits.

       The review covered the period from fiscal year (FY) 2010 through the
first quarter of FY 2011 (October 1, 2009, through December 31, 2010).
We conducted our fieldwork from March 2011 through July 2011.

Interviews

      We interviewed officials and staff members at the various
components’ headquarters and field offices. We also interviewed
Government Accountability Office personnel to discuss its previous reviews
as well as OPM personnel regarding investigation and clearance
procedures.

        16 We could not evaluate whether the Department and its components were

meeting the reciprocity requirements of IRTPA or whether clearances for specific positions
took longer to process because information needed for such analyses was not consistently
captured across the Department. The one exception was clearances for FBI contract
linguists, addressed in Chapter II of this report.

U.S. Department of Justice                                                            6
Office of the Inspector General
Evaluation and Inspections Division
Data Analyses and Document Reviews

      We analyzed component data on security and personnel information
from FY 2010 through the first quarter of FY 2011 (October 1, 2009,
through December 31, 2010). We chose this period based on when
agencies were required to start meeting the IRTPA guideline of completing
90 percent of clearances within an average of 60 days. 17 The data
included when the background investigation was initiated, when the
background investigation was completed, when the adjudication
determination was made, the risk or sensitivity level, and the job position.
We also reviewed relevant laws, regulations, policies, procedures, internal
reviews, and a sampling of security files for completed background
investigations. See Appendix V for a detailed description of the OIG’s
methodology used for each analysis.

Site Visits

       We conducted 13 site visits to ATF and FBI field offices, USMS and
United States Attorneys’ Offices’ (USAO) district offices, DEA division
offices, and BOP confinement facilities in Los Angeles and Atlanta. We
also visited JMD and each law enforcement component’s headquarters, as
well as the Civil Division, the Civil Rights Division, the Criminal Division,
and EOUSA.




        17 On October 1, 2012, the Director of National Intelligence changed the

timeliness standard for completing single scope background investigations from 40 to 80
days. Single scope background investigations are more complex and are generally
completed for individuals receiving access to Top Secret information. However, because
this change did not apply to cases completed during the time period covered by our
review, we used the 40-day investigation standard.

U.S. Department of Justice                                                           7
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW




CHAPTER I: PUBLIC TRUST POSITIONS

       The Department averaged 82 days to complete
       background       investigations     and      adjudication
       determinations for Public Trust contractor positions.
       However, OPM’s 90-day timeliness requirement was
       exceeded in nearly 10 percent of adjudications, the
       majority of which involved BOP contractors.          One
       component, the USMS, used its own personnel to conduct
       background investigations for certain Public Trust
       contractor positions. These investigations took longer to
       complete on average than investigations completed by
       OPM or ATF, and diverted the USMS’s personnel from
       other tasks.


The background investigation and adjudication process for Public
Trust positions averaged 82 days to complete, but nearly 10 percent
of adjudications exceeded OPM’s 90-day timeliness requirement.

      Public Trust cases accounted for 90 percent (3,434 of 3,797) of the
Department’s contractor job positions reviewed for this analysis. Overall,
the personnel security process for Public Trust cases took an average of 82
days to complete. The background investigation phase took an average of
46 days and the adjudication phase took an average of 36 days. 18
However, nearly 10 percent (326 of 3,434) of adjudications exceeded OPM’s
90-day timeliness requirement. The majority (221 of 326) of these cases
were completed at the BOP. 19

       Individuals in Public Trust positions generally start work under a
waiver while the background investigation and adjudication phases of the
personnel security process are being completed. During the OIG’s earlier
review of the security clearance process for Department employees, we
found that employees in Public Trust positions who started work under a
waiver routinely had access to sensitive information and systems for
significant periods of time before their background investigation or

       18 The majority of these investigations were completed by OPM. However, ATF

and the USMS did conduct investigations for some of their Public Trust contractors.

       19 These cases represented 13 percent (221 of 1,748) of the total Public Trust

cases the BOP completed during our review’s time period.

U.S. Department of Justice                                                              8
Office of the Inspector General
Evaluation and Inspections Division
adjudication was completed. In response to this finding, SEPS
implemented procedures to identify and adjudicate lengthy employee
cases. 20 The OIG believes that the Department would benefit from a
similar process for identifying contractor cases that have been pending for
a significant period of time and have exceeded OPM’s 90-day adjudication
requirement.

      One component, the Office of Justice Programs (OJP), took much
longer than the Department’s average to complete personnel security
approvals for its Public Trust contractors. As a result, 58 OJP contractors
worked in the Department for an average of 146 days without completed
adjudication determinations (Figure 2).

         Figure 2: Timeliness of Completed Public Trust Cases, 

             October 1, 2009, through December 31, 2010 





   Note: “DOJ Other” consists of Community Oriented Policing Services (eight cases),
   the Community Relations Service (one case), the OIG (three cases), and the
   United States Parole Commission (one case).

   Source: OIG analysis.

      Although the Department as a whole took an average of 36 days to
adjudicate Public Trust cases, OJP took an average of 88 days to
adjudicate its cases. In addition, OJP exceeded OPM’s 90-day
adjudication requirement for more than 63 percent (37 of 58) of its cases.
By comparison, the DEA completed a similar number of cases (64) and
took only an average of 11 days to complete adjudications.


       20 The BOP also issued a memorandum on November 28, 2012, formalizing its

procedures for ensuring that Public Trust background investigations for both employees
and contractors are adjudicated within 90 days of the investigation completed date.

U.S. Department of Justice                                                             9
Office of the Inspector General
Evaluation and Inspections Division
       Security Specialists at OJP told the OIG that during the time period
covered by our review they experienced staffing shortages that contributed
to delays in their adjudication process. OJP told the OIG that, starting in
June 2010, OJP took corrective measures to hire and train additional
staff. OJP told the OIG that it also reorganized staff responsibilities during
the first quarter of 2011 to better manage its workload of contractor
adjudications. 21

USMS background investigations of certain Public Trust contractor
positions took longer to complete and diverted USMS personnel from
other mission-critical tasks.

      During the time period covered by this review, the USMS used its
own personnel to conduct background investigations for one category of
Public Trust contractors, Court Security Officers (CSO). We found that
these background investigations took longer to complete on average than
investigations completed by OPM or ATF and diverted the USMS’s
personnel from other mission-critical tasks.

The USMS’s Background Investigations

       Most DOJ components use OPM’s investigative service or, in the
case of ATF, contract field investigators, to conduct background
investigations for contractors in Public Trust positions. 22 However, during
the time period covered by our review, the USMS used Deputy U.S.
Marshals in the local districts to perform background investigations for
contractors hired as CSOs. 23 CSOs are Public Trust contractors and
perform security duties at federal judiciary facilities for the judicial
branch’s Administrative Office of the U.S. Courts (AOUSC). The USMS’s
Office of Court Security, under the Judicial Security Division, administers
the CSO program on AOUSC’s behalf. This includes overseeing the CSO
contracts and screening, training, and managing the CSOs. The Judicial
Security Division is funded exclusively by the AOUSC, including the cost of
conducting background investigations for the CSOs. The USMS allots
$900,000 of its Judicial Security Division budget for CSO investigations
each year.



       21 Given the time period under review, the OIG was not able to determine if OJP’s

timeliness in completing adjudications improved as a result of these measures.

       22   The FBI does not have any Public Trust contractors.

      23 For all contractors in Public Trust positions other than the CSOs, the USMS

used OPM’s investigative service to conduct background investigations.

U.S. Department of Justice                                                          10
Office of the Inspector General
Evaluation and Inspections Division
      CSOs received a background investigation comparable to a 5-year
scope background investigation. 24 The OIG compared the time it took the
USMS, OPM, and ATF to complete 5-year scope background investigations.
We found that the USMS took 9 days longer on average to complete
investigations of CSOs than OPM did to complete similar investigations of
other Public Trust contractors in the Department and 22 days longer on
average than ATF (Table 1).

 Table 1: Five-Year Scope Background Investigations of Public Trust 

         Cases, October 1, 2009, through December 31, 2010 

                          Investigating                     Number of
                             Agency          Mean Days        Cases
                    ATF                           57.3             54
                    OPM                           70.0             22
                    USMS (CSOs)                   79.4            336
                    All                           76.0            412

                  Source: OIG analysis.

      The USMS’s personnel security process was slower, in part, because
CSO applicants must pass the USMS’s medical screening requirements
before the agency’s adjudicators can make a favorable determination.
USMS officials told the OIG that because CSO applicants are often retired
law enforcement officers and are generally older than other Department
contractors, they are more likely to have medical issues that can cause
delays in the personnel security process. 25 The OIG reviewed a sample of
six CSO case files and found that the medical screening process affected
the length of the personnel security process in four of the six cases, with
the time to complete the medical screening ranging from a little over 3
months to more than 9 months. These case files were generally consistent
with the USMS’s explanation that medical screening requirements
accounted for at least some of the delays in its background investigations.

      Also contributing to the slower investigations was the USMS’s use of
Deputy Marshals in the local districts, to whom CSO investigations were
assigned as a collateral duty. Unlike the contract field investigators used
to conduct background investigations for ATF, USMS Deputy Marshals are

         24 A 5-year scope background investigation covers the past 5 years of a subject’s

activities and includes verification of citizenship and date and place of birth, as well as
national agency records checks on the subject’s spouse or cohabitant, interviews with
selected references, and former spouses.

       25   According to USMS officials, the average age of a CSO is 61.

U.S. Department of Justice                                                              11
Office of the Inspector General
Evaluation and Inspections Division
criminal investigators and are required to balance their operational duties
with the CSO background investigations. This situation contributed to the
length of time it took the USMS to complete CSO investigations, and it
directly affected the Deputy Marshals’ ability to focus on their other
mission-critical tasks.

USMS’s Management of the CSO Program

      Unlike ATF, the USMS did not have specific guidelines or written
procedures on how to conduct CSO investigations. ATF has developed a
Special Investigator Manual that is used to ensure that ATF contract field
agents follow the same process and conduct background investigations in
accordance with OPM requirements. This includes instructions on the
type of sources that should be included in an investigation and standard
protocols for conducting interviews. In contrast, the USMS did not provide
its Deputy Marshals with any detailed written guidelines for conducting
CSO investigations. USMS security personnel told the OIG that they
believed the standardized forms Deputy Marshals filled out during the
course of a CSO investigation were “self-explanatory.” However, the
USMS’s forms do not explain what constitutes derogatory information and
contain only general interview requirements. Without clear guidelines, we
were unable to determine if all Deputy Marshals followed the same
investigative standards or if CSO investigations were consistent with OPM
requirements. USMS officials also told the OIG that CSO investigations
were not aligned with DOJ agency processes and, consequently, would not
be accepted by other agencies under federal reciprocity requirements. 26

        In addition to lacking standard investigation procedures, the USMS
was not able to measure the costs of its CSO investigations accurately.
Deputy Marshals are required to document the time they spend on CSO
investigations using a project code that the USMS then uses to reimburse
itself from the AOUSC budget allotment. Despite this requirement, the
USMS was not able to determine an average or per-unit cost for its
investigations. Initially, the USMS told the OIG that it cost $3,189 to
conduct a CSO investigation. However, USMS managers subsequently
told the OIG that this number was not based on the actual cost of a CSO
investigation, but rather was the amount OPM charges to conduct a
background investigation at the same level.

      During the course of the OIG’s review, the USMS conducted its own
internal evaluation to determine the most effective method for conducting

       26 We did not independently verify these statements, as the issues of whether

CSO investigations were aligned with DOJ or OPM standards and whether they meet
reciprocity requirements were outside the scope of the review.

U.S. Department of Justice                                                             12
Office of the Inspector General
Evaluation and Inspections Division
CSO background investigations. The USMS concluded that it should
begin using OPM to conduct all CSO background investigations starting in
FY 2013. 27 The USMS also determined that, under OPM’s guidelines,
CSOs required only an investigation at the minimum background
investigation (MBI) level as opposed to the 5-year scope background
investigations the USMS had been conducting. 28 The primary difference
between the 5-year scope background investigation and the MBI is the
number of interviews that are required. The USMS found that since 2010
less than 3 percent (35 of 1,184) of CSO applicants were denied based on
information gleaned from interviews and, consequently, USMS managers
did not believe conducting an MBI would result in an unacceptably greater
risk. 29 Since OPM charges $752 for an MBI versus $3,189 for a BI, USMS
managers believed using OPM and switching to an MBI-level investigation
would not only meet the agency’s investigative needs, but would also
result in future cost savings. USMS officials estimate that this revised
process would reduce the annual CSO investigation budget of $900,000 by
$120,000 a year for the first 5 years and then by $360,000 a year after
that.

      In addition to the potential cost savings, the USMS determined that
using OPM to conduct investigations would free Deputy Marshals to focus
on other mission-critical tasks, improve the consistency of investigations,
and reduce the USMS’s processing times. As a result of these findings, the
USMS began using OPM to conduct CSO investigations in October 2012.

Conclusions and Recommendations

       Overall, the Department averaged 82 days to complete personnel
security approvals for Public Trust contractor cases. The Department
averaged 36 days to complete the adjudication phase of the process, which
is well within OPM’s 90-day requirement. However, nearly 10 percent of
Public Trust adjudications exceeded the OPM requirement, the majority of
which involved BOP contractors. Given that these individuals may work in

        27 OPM contract investigators will conduct the background investigations, and

AOUSC will reimburse the USMS for the cost. The transition to using OPM will phase in
over 5 years, since all current CSOs will need to be processed through OPM’s e-QIP
system when they are due for a reinvestigation. All new applicants for CSO positions will
be processed through e-QIP.

       28 An MBI consists of a personal subject interview and written inquiries covering a

subject’s employment, education, credit, and residence.

        29 The OIG did not attempt to assess the sufficiency of an MBI-level background

investigation for CSOs. Accordingly, we do not have a basis for evaluating whether using
the MBI results in an unacceptably greater level of risk.

U.S. Department of Justice                                                           13
Office of the Inspector General
Evaluation and Inspections Division
close proximity to sensitive systems and information, the OIG is concerned
that delays in the security process may present a security risk to the
Department.

       The USMS’s investigations of CSOs took longer to complete, on
average, than investigations completed by OPM or ATF. Further, because
these investigations were completed by Deputy Marshals rather than
contract field investigators, the time spent on CSO investigations directly
affected the Deputy Marshals’ ability to work on other mission-critical
tasks. The OIG also found that, although standardized forms were in use,
the USMS did not have standardized procedures for its CSO investigations.
In October 2012, the USMS began using OPM to conduct CSO
investigations at the MBI-level, which the USMS believes will result in
improved consistency and potential cost savings.

       To improve components’ timeliness in completing Public Trust cases
and to ensure that USMS resources are efficiently deployed for mission-
critical operations, we recommend that:

       1. SEPS implement procedures to identify contractor cases that are
          pending for a significant period of time and have exceeded OPM’s
          90-day adjudication requirement; and

       2. The USMS continue to use OPM’s investigative services to
          complete background investigations for its CSOs.




U.S. Department of Justice                                            14
Office of the Inspector General
Evaluation and Inspections Division
CHAPTER II: NATIONAL SECURITY INFORMATION POSITIONS

       The Department did not complete at least 90 percent of
       the National Security Information clearances for
       contractors within the 60-day IRTPA time guideline,
       primarily because of the time taken by the FBI to
       complete background investigations for its contractors.


      As a whole, the Department averaged 107 days to complete security
clearances for National Security Information contractor positions. 30
However, National Security Information positions represent a small
minority (10 percent, or 363 of 3,797) of the Department’s contractor cases
completed during this review.

FBI National Security Cases

      The FBI accounted for almost all (99 percent, or 359 of 363) of the
Department’s cases and averaged 108 days to process National Security
Information clearances for its contractors. Of these cases, 86 percent (307
of 359) exceeded the 60-day IRTPA timeliness guideline. The FBI took an
average of 93 days to complete the background investigation phase of the
process, exceeding the 40-day IRTPA guideline, but only took an average of
15 days to complete adjudications, which was well below the 20-day IRTPA
guideline.

      The time the FBI took to complete background investigations for its
contractors steadily increased from 60 days in the first quarter of FY 2010
to 116 days in the first quarter of FY 2011. During this time, the FBI also
experienced a significant increase in the number of National Security
Information cases that it completed, from 9 cases in the first quarter of
FY 2010 to 97 cases in the first quarter of FY 2011.

Factors Affecting Timeliness

      Department human resources and security personnel told the OIG
that security clearance approvals for contractors with a large number of


        30 The numbers in this chapter represent the overall averages for the fastest

90 percent of cases for the entire Department, rather than the average of 100 percent of
the total investigations completed. The OIG selected the fastest 90 percent of the cases
because this is the methodology OPM and the Office of the Director of National
Intelligence use in measuring agencies’ performance against the IRTPA time guidelines.
Further, these numbers do not include contractors working under a commercial contract
who received clearances through DISCO.

U.S. Department of Justice                                                          15
Office of the Inspector General
Evaluation and Inspections Division
foreign connections or extensive overseas travel usually take longer to
complete because investigators may have to conduct additional work to
contact references and verify information overseas. If the contractor has
connections to particular countries that may pose a higher risk, the hiring
component may conduct an additional analysis to ensure the individual
does not pose a risk to national security.

      Human resources and security staff stated that contract linguists in
particular are more likely to have connections to these countries. During
the time period covered by our review, contract linguists accounted for
only 13 percent (46 of 359) of the FBI’s National Security Information
cases. However, the time taken to complete their security clearances had
a disproportionate effect on the FBI’s overall processing times, adding
nearly 9 days to the FBI’s average. Security clearances for FBI contract
linguists took, on average, 67 days longer to complete than security
clearances for other FBI contractors (166 days versus 99 days). The OIG
reviewed the five longest contract linguist cases and found that each of
these cases involved subjects who had significant foreign connections and
overseas travel that required the FBI had to conduct additional checks,
contributing to the length of the security process for these individuals.

Non-FBI National Security Information Cases

      The remaining four National Security Information cases took an
overall average of 66 days to complete. Of these, three cases belonged to
ATF and one to the USMS. ATF averaged 47 days to complete the
background investigations for its 3 cases and 15 days to complete the
adjudication. The background investigation for the USMS case, which was
completed by OPM, took 59 days, and the adjudication took 11 days.

Conclusions

      The Department as a whole is not meeting the overall IRTPA time
guideline of 60 days when completing security clearances for contractors
in National Security Information positions, primarily because of the time
taken by the FBI to complete background investigations for its own
contractors. The FBI accounted for almost all (99 percent) of the
Department’s cases and averaged 108 days to complete National Security
Information clearances for its contractors. One factor that contributes to
the FBI’s lengthy processing times is the time taken to complete security
clearances for contract linguists, which took, on average, 67 days longer
than security clearances for other FBI contractors.




U.S. Department of Justice                                             16
Office of the Inspector General
Evaluation and Inspections Division
CHAPTER III: PROGRAM MANAGEMENT AND TRACKING

       Components could not ensure that contractors have the
       required personnel security approval because personnel
       security data for contractors is not consistently tracked
       and managed across the Department. No comprehensive
       Department-wide contractor security policy exists, and
       what guidance does exist is outdated and inconsistent.


Personnel security data for contractors is not consistently tracked
and managed across the Department.

       Because personnel security data for contractors is not consistently
tracked and managed across the Department, components cannot always
ensure that contractors have the appropriate clearance or sensitivity level
for their positions.

      During the time period covered by our review, procedures for
tracking contractor personnel security information varied significantly
throughout the Department. No single data source existed for tracking
contractor personnel security information, and the various components
often kept information in multiple systems or, at times, in paper files.

      Maintaining separate collections of data resulted in components
having conflicting or incomplete personnel security information for the
contractors they employed, and in some cases components were not able
to identify all of the individuals working for them. We found four specific
instances of this at three different components:

   •		 Security personnel in one USMS field office stated that they have
       had problems with USMS headquarters losing copies of contractor
       security files. In one specific instance, the field office had to send
       the same files three times within a 9-month period. USMS
       headquarters told the field office that the issue was due to staff
       changes at headquarters.

   •		 Security personnel working in the Office of Security Programs at
       USMS headquarters stated that they had found instances where
       contractors were not in the USMS’s tracking system. These
       contractors had completed adjudications and were working in USMS
       facilities, but there was no record of the contractors at USMS
       headquarters.



U.S. Department of Justice                                                 17
Office of the Inspector General
Evaluation and Inspections Division
   •		 In data ATF submitted to the OIG, 250 of 372 contractors were
       mistakenly listed in a human resources database as occupying
       National Security Information positions when in fact they should
       have been listed as occupying Public Trust positions. ATF’s
       Personnel Security Group discovered the error in August 2011 when
       ATF deployed the DOJ-wide system, JSTARS, to help it track and
       manage information on its contractors. ATF was not able to
       determine when the issue first began or the total number of cases
       affected, but these 250 individuals had worked in the Department
       for up to 15 months before ATF identified the error. ATF officials
       told the OIG that none of the 250 contractors would have been
       allowed to access National Security Information because this error
       was limited to a human resources database that ATF did not use to
       verify clearances for contractor personnel. 31

   •		 Security staff at EOUSA discovered that they did not have a
       complete list of all the contractors with access to EOUSA space and
       information systems. This issue was discovered when EOUSA was
       preparing its data for JSTARS and caused delays in the JSTARS
       deployment process.

       As of December 2012, all components had moved their data to
JSTARS. Using JSTARS should improve components’ ability to track and
manage information on their contractors and reduce the potential for
inaccurate or inconsistent personnel security data. However, using JSTARS
will not address many of the tracking issues identified in this review, and
vulnerabilities still remain in how components administer their contractor
personnel security processes. For instance, SEPS officials told the OIG that
components continue to identify additional contractors that components
were not aware of and that were not reported to JSTARS. Addressing these
issues and other issues identified in this review will require components to
take actions in addition to the deployment of JSTARS.

There is no comprehensive Department-wide contractor security
policy, and what guidance does exist is outdated and inconsistent.

       Providing Department-wide policy is a fundamental part of SEPS’s
responsibilities. However, there is currently no Department-wide security
policy for contractors. Since 1998, SEPS has issued seven memoranda
specific to the personnel security process for contractors. These
memoranda provide general information on how to assign risk levels to

         31 After discovering the issue with the human resources database, ATF security

officials told us that they implemented additional measures to ensure that contractor
security and clearance information is reported correctly in that system.

U.S. Department of Justice                                                           18
Office of the Inspector General
Evaluation and Inspections Division
contractors and conduct background checks for contractors who require
escorted or unescorted access to DOJ facilities, but do not provide any
comprehensive or binding policy for components to follow in managing
their contractor security programs. Further, SEPS has not issued any
Department-wide contractor policy in response to critical changes in the
security environment regarding uniform standards in background
investigations, policies for access to classified information, and
reciprocity. 32

      The Department’s Employee Security Order requires that both its
National Security Information and Public Trust employees be reinvestigated
every 5 years. However, the Department has not issued a policy with a
similar requirement for Public Trust contractors. 33 This issue was
previously identified in a 2005 OIG report. 34 At the time, SEPS officials
stated that a reinvestigation policy for contractors was necessary to ensure
the Department’s security and that SEPS was taking steps to draft a
reinvestigation policy for contractors. However, a policy was never issued.

       SEPS officials told the OIG that, because there is no comprehensive
Department-wide contractor security order, components frequently come
to them for clarification on contractor issues and to ask when a
Department-wide security order will be released. Similarly, security
officials at ATF told the OIG that a single, Department-wide contractor
security order would help them ensure they are following consistent
standards. In the past, they have had to ask SEPS for guidance on the
Department’s reinvestigation requirements and on how to categorize
certain contractors.

      During our current review, SEPS officials stated that they have been
working on drafting a comprehensive contractor policy since 2002, but
issuing this document has not been a priority because they have been

       32 Examples of such changes include Executive Order 13467 and IRTPA, which

mandate the use of consistent guidelines in background investigations and adjudication
determinations across the federal government. Along with Executive Orders 12968 and
13381, they also establish government-wide standards regarding reciprocity.

        33 Contractors in National Security Information positions are subject to the

reinvestigation requirements of IRTPA and must receive a reinvestigation at least every 5,
10, or 15 years, depending on their investigation level. OPM is in the process of
implementing new reinvestigation standards that will require contractors in Public Trust
positions to receive a reinvestigation every 5 years. However, as of January 23, 2013,
these new standards were not yet in effect.

       34 Review of the Security and Emergency Planning Staff’s Management of

Background Investigations, Evaluation and Inspections Report I-2005-010 (September
2005).

U.S. Department of Justice                                                            19
Office of the Inspector General
Evaluation and Inspections Division
focused on implementing policies such as IRTPA. Further, because
Department security policies are constantly evolving, SEPS officials stated
that they have struggled to develop a comprehensive policy for contractors.
In January 2011, SEPS provided the OIG with a draft Department-wide
contractor security policy that was being circulated for review by the
components. 35 The OIG believes this policy should play a critical role in
ensuring components follow consistent standards in managing their
contractor security programs.

Conclusions and Recommendations

       During the time period covered by our review, procedures for
tracking contractor personnel security information varied significantly
throughout the Department. There was no single data source for tracking
contractor personnel security information, and the various components
kept information in multiple systems or, at times, in paper files. As a
result, some components did not maintain accurate security information
on their contractors. For example, in data ATF submitted to the OIG, 250
of 372 contractors were mistakenly listed as occupying National Security
Information positions when in fact they should have been listed as
occupying Public Trust positions. The USMS and EOUSA also had issues
with maintaining accurate information on their active contractors.

       There is currently no comprehensive Department-wide security
policy for contractors. SEPS has issued only minimal guidance that serves
as a reference for components but does not provide any binding policy for
components to follow in managing their contractor security programs. The
issued guidance also does not provide standards regarding contractor
tracking or reinvestigations. As a result, components frequently have to
seek clarification and informal guidance from SEPS.

      To ensure that personnel security data for contractors is
consistently tracked and managed across the Department, we recommend
that:

       3. SEPS require components to maintain rosters of their active
          contractors, including information on each contractor’s clearance
          or risk level; and

       4. SEPS issue a contractor security policy similar to the
          Department’s employee security policy, including a contractor
          reinvestigation requirement that is consistent with the
          Department’s employee reinvestigation requirement.

       35   SEPS officials told the OIG they plan to issue this policy by spring 2013.

U.S. Department of Justice                                                               20
Office of the Inspector General
Evaluation and Inspections Division
                  CONCLUSION AND RECOMMENDATIONS 



      Public Trust cases accounted for 90 percent (3,434 of 3,797) of the
Department’s contractor cases. Overall, the Department averaged 82 days
to complete personnel security approvals for Public Trust cases. The
Department averaged 36 days to complete the adjudication phase of the
process, which was well within OPM’s 90-day requirement. However,
nearly 10 percent of Public Trust adjudications exceeded the OPM
requirement, the majority of which involved BOP contractors. Given that
these individuals may work in close proximity to sensitive systems and
information, the OIG is concerned that delays in the personnel security
process may present a security risk to the Department.

      One component, the USMS, used its own personnel to conduct
background investigations for CSOs during the OIG’s review period. These
investigations took longer to complete on average than investigations
completed by OPM or ATF and diverted the USMS’s resources from other
mission-critical tasks. The OIG also found that, although standardized
forms were in use, the USMS did not have standardized procedures for its
CSO investigations. In October 2012, the USMS began using OPM to
conduct CSO investigations at the MBI level.

      The Department as a whole did not meet the overall IRTPA time
guideline of 60 days when completing security clearances for contractors
in National Security Information positions, primarily because of the time
taken by the FBI to complete background investigations for its own
contractors. The FBI accounted for almost all (99 percent) of the
Department’s National Security Information cases and averaged 108 days
to complete clearances for its own contractors. One factor that
contributed to the FBI’s lengthy processing times was the time taken to
complete security clearances for contract linguists. During the time period
covered by this review, security clearances for FBI linguists took 67 days
longer on average than for other FBI contractors (166 days versus 99 days)
and added 9 days to the FBI’s average total processing times.

       Also during the time period covered by our review, procedures for
tracking contractor personnel security information varied significantly
throughout the Department. There was no single data source for tracking
contractor personnel security information, and the various components
kept information in multiple systems or, at times, in paper files. As a
result, some components could not maintain accurate security information
on their contractors. For example, in data ATF submitted to the OIG, 250
of 372 contractors were mistakenly listed as occupying National Security


U.S. Department of Justice                                             21
Office of the Inspector General
Evaluation and Inspections Division
Information positions when in fact they should have been listed as
occupying Public Trust positions.

       There is currently no comprehensive Department-wide security
policy for contractors. SEPS has issued only minimal guidance that serves
as a reference for components and does not provide any binding policy for
components to follow in managing their contractor security programs. The
guidance also does not provide standards regarding contractor tracking or
reinvestigations. As a result, components frequently have to seek
clarification from SEPS.

      To improve the Department’s management of the contractor
personnel security process and to ensure that only individuals with the
appropriate clearance level have access to sensitive and classified
information, we recommend that:

       1. SEPS implement procedures to identify contractor cases that are
          pending for a significant period of time and have exceeded OPM’s
          90-day adjudication requirement;

       2. The USMS continue to use OPM’s investigative services to
          complete background investigations for its CSOs;

       3. SEPS require components to maintain rosters of their
          active contractors, including information on each
          contractor’s clearance or risk level; and

       4. SEPS issue a contractor security policy similar to the
          Department’s employee security policy, including a contractor
          reinvestigation requirement that is consistent with the
          Department’s employee reinvestigation requirement.




U.S. Department of Justice                                            22
Office of the Inspector General
Evaluation and Inspections Division
                            APPENDIX I: ACRONYMS




AOUSC         Administrative Office of the United States Courts
ATF           Bureau of Alcohol, Tobacco, Firearms and Explosives
BI            Background investigation
BOP           Federal Bureau of Prisons
CSO           Court Security Officer
DEA           Drug Enforcement Administration
DOJ           Department of Justice
e-QIP         Electronic Questionnaires for Investigations Processing
EOUSA         Executive Office for United States Attorneys
FBI           Federal Bureau of Investigation
FY            Fiscal year
IRTPA         Intelligence Reform and Terrorism Prevention Act of 2004
JMD           Justice Management Division
JSTARS        Justice Security Tracking and Adjudication Record System
MBI           Moderate background investigation
OIG           Office of Inspector General
OJP           Office of Justice Programs
OPM           Office of Personnel Management
SCI           Sensitive Compartmented Information
SEPS          Security and Emergency Planning Staff
SSBI          Single scope background investigation
USAO          United States Attorney’s Office
USMS          United States Marshals Service




U.S. Department of Justice                                               23
Office of the Inspector General
Evaluation and Inspections Division
                   APPENDIX II: RELATED OIG REPORTS 



The OIG reports listed below found that certain Department components
did not have effective personnel security processes, which resulted in
untimely background investigations and adjudications, personnel having
unauthorized access to sensitive Department data and facilities, and other
problems with the personnel security process.

   •		 Implementation of the Contractor Personnel Security Program in
       Selected Offices, Boards, and Divisions, Evaluation and Inspections
       Report I-01-004 (March 2001).

   •		 Background Investigations Conducted by the United States Marshals
       Service, Evaluation and Inspections Report I-2005-002 (February
       2005).

   •		 United States Marshals Service’s Use of Independent Contractors as
       Guards, Audit Report 05-24 (May 2005).

   •		 The Federal Bureau of Investigation’s Efforts to Hire, Train, and
       Retain Intelligence Analysts, Audit Report 05-20 (May 2005).

   •		 Review of the Security and Emergency Planning Staff’s Management
       of Background Investigations, Evaluation and Inspections Report
       I-2005-010 (September 2005).

   •		 Follow-up Audit of the Federal Bureau of Investigation’s Efforts to
       Hire, Train, and Retain Intelligence Analysts, Audit Report 07-30
       (April 2007).

   •		 The Federal Bureau of Investigation’s Foreign Language Translation
       Program, Audit Report 10-02 (October 2009).

   •		 Audit of the United States Marshals Service’s Oversight of its Judicial
       Facilities Security Program, Audit Report 11-02 (November 2010).




U.S. Department of Justice                                                   24
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX III: RISK LEVELS ASSOCIATED WITH BACKGROUND 

                  INVESTIGATION REQUIREMENTS




       Each Department contractor position is assigned a position
sensitivity level depending on the position’s potential to adversely affect
the integrity and efficiency of the agency’s service. 36 Positions are
designated as Public Trust unless access to National Security Information
is required. If the position requires access to National Security
Information, it is assigned a sensitivity designation of Special-Sensitive,
Critical-Sensitive, or Non-Critical Sensitive. Positions with a Special-
Sensitive designation require access to Sensitive Compartmented
Information (SCI) and are assigned to individuals with Top Secret
clearances. Table 2 summarizes the various position sensitivity levels and
the background investigation required for each position. 37

         Table 2: Risk and Sensitivity Levels and Their Required 

                       Background Investigations 

  Position                    Access level
 Sensitivity                               Top            Initial Background
   Level        Confidential   Secret    Secret   SCI Investigation Required
                     National Security Information Positions
 Special
                                                       X              SSBI
 Sensitive
 Critical
                                              X                       SSBI
 Sensitive
 Non-Critical                                               National Agency Check
                     X             X
 Sensitive                                                   with Law and Credit
                               Public Trust Positions
 High Risk                                                      BI (5-year scope)
 Moderate
                              NO ACCESS                               MBI
 Risk
                                                            National Agency Check
 Low Risk
                                                                 and Inquiries
Source: OIG.

      A single scope background investigation (SSBI) covers the past
7 years of a subject’s activities (or to age 18, whichever is less). It includes
a personal subject interview; various law enforcement checks; national


      36 DOJ Security and Emergency Planning Staff, Contractor Personnel Security

Guidance, September 1998.

        37 The investigative standards for contractors in Non-Critical Sensitive positions

are less intrusive than the investigative standards for employees in similar positions.
Employees in these positions receive a 5-year scope or MBI level investigation.

U.S. Department of Justice                                                             25
Office of the Inspector General
Evaluation and Inspections Division
agency records checks on the subject’s spouse or cohabitant; interviews
with selected references and former spouses; and verification of an
individual’s employment, education, residence, citizenship, and date and
place of birth.

       A 5-year scope background investigation is similar to a SSBI, except
it only covers the past 5 years of a subject’s activities.

      A moderate background investigation (MBI) consists of a personal
subject interview and written inquiries covering a subject’s employment,
education, credit, and residence.

      A national agency check with law and credit investigation consists of
searches covering an individual’s background during the past 5 years, as
well as a credit search for the past 7 years. It does not include a personal
subject interview.

      A national agency check and inquiries investigation consists of
searches covering an individual’s background during the past 5 years. It
does not include a personal subject interview.




U.S. Department of Justice                                              26
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX IV: COMPONENTS WITH DELEGATED AUTHORITY FOR 

       THE CONTRACTOR PERSONNEL SECURITY PROCESS 



                                                Conduct Initial     Adjudicate
                 Component
                                                Investigations    Investigations
 Bureau of Alcohol, Tobacco, Firearms and
                                                     Yes               Yes
 Explosives
 Antitrust Division                                  OPM               Yes
 Bureau of Prisons                                   OPM               Yes
 Civil Division                                      OPM               Yes
 Civil Rights Division                               OPM               Yes
 Community Oriented Policing Services                OPM               Yes
 Community Relations Service                         OPM               Yes
 Criminal Division                                   OPM               Yes
 Drug Enforcement Administration                     OPM               Yes
 Environment and Natural Resources Division          OPM               Yes
 Executive Office for United States Attorneys        OPM               Yes
 Executive Office for Immigration Review             OPM               Yes
 Executive Office for U.S. Trustees                  OPM               Yes
 Federal Bureau of Investigation                     Yes               Yes
 Interpol Washington                                 OPM               Yes
 Justice Management Division                         OPM               Yes
 Office of the Inspector General                     OPM               Yes
 Office of Justice Programs                          OPM               Yes
 Tax Division                                        OPM               Yes
 United States Marshals Service                      OPM               Yes
 United States Parole Commission                     OPM               Yes
 All Other Components                                OPM              SEPS




U.S. Department of Justice                                                   27
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX V: METHODOLOGY 



       For this review, the OIG conducted 13 site visits and interviewed
more than 60 security officials and staff at the following components:
ATF, BOP, Civil Division, Civil Rights Division, Consolidated Executive
Office, Criminal Division, DEA, EOUSA, FBI, OIG, OPM, SEPS, USAOs in
Los Angeles and Atlanta, and USMS.

      We conducted four types of analyses to examine both the overall
timeliness and quarterly timeliness of National Security Information and
Public Trust cases. We also analyzed the timeliness of specific types of
background investigations completed for Public Trust security cases. We
performed a distribution analysis of National Security Information and
Public Trust cases to determine the total number of job positions that
could be identified by the Department. Lastly, we analyzed timeliness for
one specific job category, contract linguists. 38 The methodology for each
analysis is described below.

Selecting Cases for Analysis

      The OIG analyzed cases handled either by OPM or the components
that contained a “background investigation initiated” date, a “background
investigation completed” date, and an “adjudication completed” date. 39
These cases represent those that have completed all phases of the security
clearance process and are not pending in status. Each of these dates is
exclusive to an individual case. We excluded cases that did not have both
a “background investigation completed” date and an “adjudication
completed” date because, without both dates, we could not account for
timeliness of each of the phases required to complete the security process.
Further, cases that did not have an “investigation initiated” date were
excluded from our analysis because we could not determine when the
security process started for those cases. We discuss each of our required
dates below.

      We calculated the difference between the “adjudication completed”
date and the “investigation initiated” date to determine the total number of
days taken to complete the security clearance process. Likewise, we

        38 Information on reciprocity and job series was not consistently captured across

the Department. As a result, we were unable to evaluate whether the Department and its
components were meeting the reciprocity requirements of IRTPA and whether clearances
for specific positions take longer to process.

       39   We did not include any cases where a clearance was granted through DISCO.

U.S. Department of Justice                                                          28
Office of the Inspector General
Evaluation and Inspections Division
calculated the difference between the “background investigation
completed” date and the “background investigation initiated” date to
determine the total number of days taken to complete investigation phase
of the security clearance process. We also calculated the difference
between the “adjudication completed” date and the “background
investigation completed” date to determine the total number of days taken
to complete the adjudication phase of the security clearance process.

Measuring Timeliness for National Security Information Positions

       The OIG measured the average time to complete a National Security
Information clearance for the fastest 90 percent of cases completed
between October 1, 2009, and December 31, 2010, by quarter. 40 We used
the “adjudication completed” date to determine which cases were
completed in each quarter. The data available for analysis contained 402
cases.

       We conducted a separate analysis to identify the fastest 90 percent
of cases within each quarter. A total of 363 cases were identified among
the three investigative agencies – ATF (3 cases), the FBI (359 cases), and
OPM (1 cases). We used these cases to calculate the average time taken to
complete background investigations and adjudication determinations for
National Security Information clearances for the entire Department. This
analysis also included a distribution analysis through which the
percentage of the Department’s National Security Information cases
exceeding the 60-day IRTPA guideline was determined. We identified 310
of the Department’s 363 National Security Information cases (85 percent)
processed from October 1, 2009, through December 31, 2010, that failed
to meet the overall IRTPA time guideline.

Measuring Timeliness for Public Trust Positions

      To measure the average time to complete a background investigation
and adjudication for Public Trust cases completed between October 1,
2009, and December 31, 2010, by quarter, we used the “adjudication
completed” date. Based on our criteria, the data available for analysis
contained 3,434 cases. The average was taken using 100 percent of cases
because the IRTPA timeliness guidelines do not apply to Public Trust

       40 The OIG used the IRTPA guideline to measure the Department’s performance

because, although IRTPA does not establish a specific deadline for completing individual
clearances, it does establish a general guideline and is accepted government-wide. Both
OPM and the Office of the Director of National Intelligence use the fastest 90 percent of
National Security Information cases in measuring agencies’ performance against the
IRTPA time guidelines.

U.S. Department of Justice                                                           29
Office of the Inspector General
Evaluation and Inspections Division
positions. This analysis also included a distribution analysis through
which the percentage of the Department’s Public Trust cases exceeding the
90-day OPM adjudication requirement was determined. We identified 326
of the Department’s 3,434 Public Trust cases (10 percent) processed from
October 1, 2009, through December 31, 2010, that failed to meet OPM’s
requirement for completing and reporting adjudications.

Analyzing Cases by Job Series

       The OIG was able to conduct a job series analysis only for the FBI’s
contract linguists because it was the only job series clearly and
consistently identified in the data we received from components. More
than 1,100 unique job titles were used for the 3,797 contract cases
analyzed during this review. There did not appear to be any standard
naming conventions across components or within specific components,
making it impossible to reliably group and analyze jobs series. Contractor
position information ranged from descriptive titles such as “Food Service
Officer” and “Fire and Safety Manager” to ambiguous titles such as
“General Clerk II” or simply “Analyst.”

       We analyzed FBI data for security clearances completed between
October 1, 2009, and December 30, 2010, to determine timeliness delays
between the fastest 90 percent of the cases for both FBI contract linguists
and all other FBI contractor employees. We determined that 13 percent
(46 of 359 cases) of all FBI contractors were contract linguists. The FBI
averaged 166 days to complete all phases of the security process for these
46 cases.

Reviewing Case Files

      We selected and reviewed 60 files to determine causes for potential
timeliness delays among certain National Security Information and Public
Trust contractor cases. We selected files from various components that
used each of the three investigative agencies – the FBI, ATF, and OPM. We
selected both long and short cases across the Department to identify
commonalities. We also reviewed USMS files to ensure the analysis
included sub-groups of the Department.




U.S. Department of Justice                                              30
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX VI: THE SECURITY AND EMERGENCY PLANNING STAFF 

                RESPONSE TO DRAFT REPORT 




                                                                                U.S. J)ellllrtm
                                                                                     Oerarlm e  ~ ni
                                                                                                  nl o f Ju s
                                                                                                            ~ltii ce
                                                                                                                  ct


                                                                                Juslice Management ni
                                                                                Justice Managemelll   \'i.~i(ln
                                                                                                    Division

                                                                                5<'nwi/y (mu      fmOll"gl.'lIC)'   !'funning Slaff




                                                                                   fEB J2
                                                                                       U 1013
                                                                                          2013

        TO
        TO::                JASON R     H[GLEY
                                   H. . HI GLi!Y
                            ACT
                            ACTIING ASSISTANT IINSPECro
                                                  NSPECTO R GEN£RAL
                                                            GENERAL
                            EVALUAT
                            EVALUA    TIION
                                         ON AND INSPECTIONS DIV
                                                             DIVIISION
                                                                   ION

                                                             ~ -.1
                                                               ~.O.·O~r-:>
                                                                   . 0.·0~r-:>
        FIW lvl:
        FROl\I:             JAMESLDUNLAP
                             AM ES LDUNLAP
                                        SEC
                            DEPARTMENT SE Cll!j'rY OFFICER                                          ---r-
                                                                                                    ~
        SU OJECT:
        SUOJ[CT:            Offk
                            Offitc... of
                                      of Inspt'ctor  General'S RepOrt
                                         Inspl'ctor Genl'ral's     Repon Entitled:                 uflh~ Depttrlmcm
                                                                                           Re"i fw uf/lle
                                                                            Entitled : Rel'iew            Dcp(lflmem ·.f  '.~
                            COli/rut/or
                            CQl1I          I'crSO/lll
                                  r<l(/(Jr l'erSOllnel   S,'Clirily
                                                      ei S,'cll rity I'roceSJ.
                                                                     Process. A.uig     lll'WI1I Numher A-2t112-U06
                                                                                 .\'slgllmclII             ·U){ 2·{){/6'·

        Th i~ O:
        This  r.:~pond5
                 ~p!lnd s to
                           tL) the om c\: of [n
                                   Omee      [n~~pcctor General   's (O
                                                          Gene!ilJ's      IG) .-cPOM
                                                                      (DIG)              ~'nti!!cd :: R,
                                                                               rcpon entitled         R,~~"icl~
                                                                                                          \""'W (lf
                                                                                                                 oj lhe
                                                                                                                     lil('
        Dtp(lrlme/ll
        Depa  rlment "s                P<'r~'()mrd SUrlrjl),
                       ',t CO II/mewr Pt'rSfJIIIIl'i S..tttrity Pro
                                                                PmcrM
                                                                    ct!Ss,. A.Hig
                                                                             X_9igWllt'lIt
                                                                                  lllllt'nI Nllmber A·   A-2fJ/2-0U6
                                                                                                            ) fJf )·(){)fJ..

          wcknme lind
        I wekome          nppll!ciatc this
                    and appreciatc       thi s review
                                               review regarding the contraclur       personllel s~ecurit
                                                                        co ntraclur (X.'rsonncl       c uril y pLt)Cess
                                                                                                               pLo<:ess in th,'
                                                                                                                           th<·
        Dcp:mm.:nL JI bdiew th
        I)cpartrncnL                 thee reeumlllcndations
                                           eco mLllcnd 3tions frolll         report will haw IILL positive impact in our
                                                                       this rcpoM
                                                                I"roll1this                                               o ur
        personnel :sec
                   :s<!<.-urity
                        urity ..lind
                                  nd cQmpli.'lncc
                                     co mpliance rtl   'icll' progrnrn
                                                    review    progr:unss... The DIG stl
                                                                                      stalff II-'3S vc
                                                                                          ff lI'a5  \"erry thorough and their
        rrotes sionalislll was greiltly
        proiessionalism            great ly appredllted.
                                            appredated.

        The 01G
             O[G report COlltains
                          cOllt:Lills three recommenduliollS                      I"I:que~tcd.
                                                                       SLllfT. As req
                                            recommendations for my SLaff.                            addrc~ss the
                                                                                      uested, I will audre~
        TO:fJ'lrts-s recommendationss ;md
        reports's recommendation                      the appropria
                                         and provide Lhe            te plan of
                                                          appropriate       Qfaction
                                                                               action for ecuch.
                                                                                            nch. The
        recommendation
        rccom mendation Ilumbers
                           numbers be   below
                                          low correspond
                                               corrc~pond to those in the OIG repor1
                                                                                repon .

         L SE I'S s hould
         1.            hou ld imllk
                              imllk'' m e nt nl lIlrondure          h.lcntifyy c~(Iontr
                                                  lr oceduress t(l it.!cntif          ntrllet(lr
                                                                                           ac tur cli  ses Ihllt
                                                                                                    ClIStS thllt :llr
                                                                                                                   Ifl\t pcndi
                                                                                                                          endino g for IlII
            s ig nifi
                 nificllnt
                      cant peri o dt.! of t ime and
                                                  li nd hlll
                                                        hal·'C
                                                             t u cce
                                                                  tcl' dt.! ed
                                                                            cd 01'1 \1 '55 90-d
                                                                               Q I'i\f'    90· d ltl)' adjudiclltion
                                                                                                   ty ad judiclltio n fr e1
                                                                                                                          l'llui
                                                                                                                             lU ifl'nl
                                                                                                                                 re m e nl
                                                                                                                                        rll.,

                   We concur lI'illl
                                willi this recommcnduti
                                               recommendlltion    on. A query
                                                                           qucry has bee n written
                                                                                              wrillen 10 to eXlmct
                                                                                                             cxtr<lctthis
                                                                                                                     thi s
                    nt imnation from JST ARS.
                   inlimnation                  ARS. lhe      DI."p;lrtmcnt"s po:TSonncl
                                                          the Drrmrtmcnt's     po:l"Sonnel securlty     system._ SEPS is
                                                                                            security systcm
                   planning
                   plan ning to mm(l~if)'    JST , \RS' reporting cupability
                                    odify JS,[                          capability 10   incluuc Lhi
                                                                                     LO include   thiss query,      conlponcuts
                                                                                                        query. so components
                   can
                   tan gcnernlc
                        gcncr:J1c th     rcpon as necdcr.!
                                   thte r"l:port       ncedcll.. Givcn     hlldgctary
                                                                  Given tllldg         e0t15ITOintS in
                                                                                ctary constraints      io ltoony's  ~onomic­
                                                                                                            odDy'S econom      i~
                   envirQnmr
                   envin)nml."nl    h ~ lI'cvl."r , thi
                               nt,, however         thiss modilication
                                                          modititalion will notnOI he ovni   lllbic Ilntil
                                                                                        IIvnihlble  until FY 14 ._ ln th thee
                   meantime the JSTARS
                   menntime               ARB Service D~sk    Desk III\ill gener'dtc the qucr)'
                                                                       ill !;CnCf'dlc     query for all .:omponenlS
                                                                                                            eumponcJ\lS,. as  D$
                   requested.
                   requested .

                   NeXIt Steps:
                   NeJoi

                        •    T he Pe    r!Wn.nd Seeuri
                                    Personnel          t)· Group will commuukme
                                                 Sccurity                            thi s plan 10
                                                                      commUJL iCllle this              Dcp.:lnmeot via
                                                                                                to the Department
                             all c-m~H
                             an  ('·-LlL~i! to Department Securit), Pr
                                                                    Programs  Man~gcrs by Mnrch
                                                                       ograms Man3gers         March 1.I , :WU.
                                                                                                           2013.

         2.
         2_ T h et IUjlli
                      nited
                          lcd S tlil es I'Ihrs
                                ta tes  Marshalhnlss Se
                                                     Se,...
                                                        l"\·' ice
                                                              iee is rt
                                                                     respo
                                                                        sponsib
                                                                           nsibllec for repl
                                                                                        re plyy ing
                                                                                                in g to thi
                                                                                                        thiss recommtndntiol1_
                                                                                                              reco mm e ndation .




U.S. Department of Justice                                                                                                                      31
Office of the Inspector General
Evaluation and Inspections Division
        Mcmorundlllll fOf Jason R. Higley                                                         Pnse     1
        Subject: Office of lnspcetor Gencrol's Report
        Entitled: Review Oflh.: Departmell!'s Conttm::tor Personnel
        Securily PrQl;cSS, Assignme nt Nllmhcr A-2012·006

        J . SE1' S should r('(luin compllncnts to mMintai n rosters of th (' ir ae li,'('   ~ontrllct()r.~ ,
            in ~ludin l;   information on CMc h co ntractor' s clellrnnce or risk level.

                We concur wilh this recommcmialioll. This requirement is included in the dran
                Contractor Policy Statement schcdllied I\J be issued by April 5. 2013.
        ,.. SE I'S shuutd issue 1I conlractor sceurit y puliey similar IIl lhe I)cpulmcnt', empl o}"('e
            security Ilolicy. including a cu ntra cto r r('in" u til,:~Uion req uirement that i.~ clm.~ is l cDt
            with Ihe Department's c ml,loyt~ n in" uligll liun rt-quiremcnt.

                We couc-ur with th is rttornlllendation. As stated above, SEr s plans to i s..~uc Ihe
                C01l1r3C10r Policy Statement by "pril 5. 20U. The CUTrell! drnft includes rcinvestigmiofl
                t<:quir.:mcnts as e!ltuhli~hed by applicable ill\I$.

        111m committed 10 II strong and elTcc!il"l.: pcrsollllci security program, lind rccoJ;ni1..t Ihallhcre is
        always room for impr<lI"CIllClll. Thcrefore. you have my commllmcnlth3t SEPS will work
        dilisl!ntly to impkmcnt the recommcndations to the bc$! of its Ilbility and ~s quicld )' a~ pos:;ihle.

        Should you haw allY qu<"slions or teqltirc 3ddill0l1:11 infonnation. plcase contllCllllC directly 11.1
        (202) S14-2094. or {}orbnnu Rite. ASSistan t Director. l'ersonnc1 Sl'Curity Group, lit
        (202) 514-2351 .




U.S. Department of Justice                                                                                          32
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX VII: OIG ANALYSIS OF THE SECURITY AND EMERGENCY 

                  PLANNING STAFF RESPONSE 



       The Office of the Inspector General provided a draft of this report to
the Justice Management Division’s Security and Emergency Planning Staff
(SEPS) for its comment. SEPS’s response is included in Appendix VI to
this report. The OIG’s analysis of SEPS’s response and the actions
necessary to close the recommendations are discussed below.

Recommendation 1: SEPS implement procedures to identify contractor
cases that are pending for a significant period of time and have exceeded
OPM’s 90-day adjudication requirement.

       Status: Resolved.

       SEPS Response: SEPS concurred with this recommendation. SEPS
stated that it has developed a query to extract this information from
JSTARS. SEPS is planning to modify JSTARS so components can generate
a report with this information on an as-needed basis. Due to budgetary
restrictions, this report feature will not be available until FY 2014.
However, the JSTARS Service Desk will generate the report for individual
components on request. SEPS plans to issue an e-mail to component
Security Program Managers in March 2013 with instructions on how to
request the query.

      OIG Analysis: SEPS’s planned actions are responsive to our
recommendation. By May 3, 2013, please provide a copy of the e-mail
instructing components on how to use the JSTARS query. In addition,
please provide documentation, including copies of any policy statements
issued to the components, showing how SEPS will use the JSTARS query
to ensure components are meeting OPM’s adjudicative goals.

Recommendation 3: SEPS require components to maintain rosters of
their active contractors, including information on each contractor’s
clearance or risk level.

       Status: Resolved.

       SEPS Response: SEPS concurred with this recommendation. SEPS
stated that it planned to issue a Contractor Policy Statement by April 5,
2013, that requires components to maintain rosters of their active
contractors, including information on each contractor’s clearance or risk
level.


U.S. Department of Justice                                               33
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis: SEPS’s planned actions are responsive to our
recommendation. Please provide a copy of the final Contractor Policy
Statement by May 3, 2013.

Recommendation 4: SEPS issue a contractor security policy similar to
the Department’s employee security policy, including a contractor
reinvestigation requirement that is consistent with the Department’s
employee reinvestigation requirement.

       Status: Resolved.

      SEPS Response: SEPS concurred with this recommendation. SEPS
stated that it planned to issue a Contractor Policy Statement by April 5,
2013. The current draft of the policy includes a contractor reinvestigation
requirement.

      OIG Analysis: SEPS’s planned actions are responsive to our
recommendation. Please provide a copy of the final Contractor Policy
Statement that includes the contractor reinvestigation requirement by
May 3, 2013.




U.S. Department of Justice                                              34
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX VIII: THE U.S. MARSHALS SERVICE RESPONSE TO DRAFT 

                           REPORT 




        ._. .
        ®.~.
              ....   .
                                                                          U.S. Ocparllncnl of

                                                                          Un ited
                                                                                                   Ju ~ licc


                                                                                    Sla!c~ Mllr5hal~   Service

                                                                         ASJ"l)ci(J/1' Dirl'clor (ur OfX!raliv//.\'


                                                                         IIIcXUlI/ui(j. "irSIII;u !2JOI·/O]5




          MEMORANDUM TO:                   J35011 R. Higley
                                           Acting Assistant rn~pec!Or Gentrnl
                                            for Enlluation and luspcclions

                               FROM:       David Hilrlow         I   ~lJvt:....--­
                                           Associu\(,'   Dir~lor     for Operations

                            SUBJECT:       Responsc      !O   the Draft Review of the Department's
                                           COnlr:lClor Personnel Security Process, A-2012-006


               Allachcd is the United SI:ltcs Marshals Service (USMS) response \0 the omtl.' of the
        Inspector General (OIG) regarding the droll Review of the Department'S Contractor ]lcrsonncJ
        Security Process. Assignment Number A·20 12-006.

                     Should you have any questions regarding these responscs. pka.~c contact
        Ms. Isabel l-lowell at 202-307-9744.

        Attachmcms

        cc:          Carl W. C(lulk
                     Assistant Director
                     Judicial Security Division

                     Donald O'Hcarn
                     ChicfofStalT

                     Isabel Howell
                     Audit Liaison
                     United States Marshals ServiCe!

                     Louise Duhumc1
                     Acting Director. Audit Liaison Group
                     Justice Management Division

                     Mury T. Myers
                     Audit Uaison Specialist. Audit Liaisiln Group
                     Justice Management Division




U.S. Department of Justice                                                                                            35
Office of the Inspector General
Evaluation and Inspections Division
                                        Response fo .Oraft Report
                      Review of the Department's Contractor Personnel Security Process
                                        Report Number A·2012-006


        Rerommnd'fiog 1: The USMS continue to use the Office of Personnel Management's (opM)
        investigative services to complete background investigations for its Court Security Officers
        (CSo,).

        Respollse: Concur,

        The USMS will continue to use OPM 's investigative services to complete background
        investigations for CSOs . In fiscal year (FY) 2010, the USMS Judicial Security Division
        performed extensive-research into Executive Orders, as weU as OPM policies and regulations as
        they relate to backgroWld investigations for CSOS, Infernal discussions were held within the
        USMS, and information was gathered regarding other government agencies' practices for
        conducting contractor background investigations. As a result of these discussions, the review of
        other government agencies' best practices, and a review of background investigation costs for the
        last three fiscal years, it was determined that changes were needed to arrive at a more efficient
        and COSt effective manner of conducting CSO background investigations.

        In FY 2012, an implementation plan was drafted outlining procedures and cost analyses to
        transition eso background investigation services to OPM. This plan was presented to the
        Administrative Office o£the United States Courts (AOUSC) for FY 2013 funding consideration
        and approval. The AOUSC concurred with the implementation plan and approved funding to
        take effect at the beginning of FY 20B. The USMS considers the switch to using OPM
        investigative services for eso background investigations to be a permanent change for the
        agency. We will continue to monitor OPM' s success in completing background investigatiol1ll in
        a ti~ly manner and will work with OPM to solve any issues that arise.




U.S. Department of Justice                                                                                  36
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX IX: OIG ANALYSIS OF THE U.S. MARSHALS SERVICE 

                         RESPONSE 



       The Office of the Inspector General provided a draft of this report to
the U.S. Marshals Service (USMS) for its comment. The USMS’s response
is included in Appendix VIII to this report. The OIG’s analysis of the
USMS’s response and the actions necessary to close the recommendations
are discussed below.

Recommendation 2: The USMS continue to use OPM’s investigative
services to complete background investigations for its CSOs.

       Status: Closed.

      USMS Response: The USMS concurred with this recommendation.
In FY 2010, the USMS evaluated its process for conducting investigations
for CSOs and determined that its existing processes were not cost-effective
and were not aligned with other government agencies’ best practices. In
FY 2012, the USMS developed a white paper examining the CSO
background investigation process, including a cost analysis and an
implementation plan to begin using OPM’s investigative services. The
AOUSC, which provides funding for the CSO program, concurred with the
USMS’s decision to use OPM and the changes were implemented in FY
2013. The USMS also provided the OIG with a copy of the FY 2012 white
paper with the USMS’s plan for implementing OPM’s investigative services
for CSO background investigations.

      OIG Analysis: Based on the actions reported by the USMS
establishing its plans to continue to use OPM’s investigative services for
CSO background investigations, this recommendation is closed.




U.S. Department of Justice                                               37
Office of the Inspector General
Evaluation and Inspections Division
